Office of Inspector General

                    General  




      Federal Maritime Commission 

Controls Over the Procurement, Lease and 

       Use of the Agency’s Vehicle 


                OR12-02 





                July 2012


FEDERAL MARITIME COMMISSION 

                              FEDERAL MARITIME COMMISSION
                                  Office of Inspector General
                                 Washington, DC 20573-0001

                                        July 17, 2012


Office of Inspector General



Dear Mr. Chairman and Commissioners,

The Office of Inspector General (OIG) transmits its review of the agency’s vehicle. The
objectives of this review were to assess compliance with Federal regulations pertaining to
the procurement and use of the leased vehicle by FMC staff, and to determine whether
controls are in place to provide reasonable assurances that the vehicle is properly used.

In late February 2011, the agency took possession of a 2011 Chevrolet Tahoe sport utility
vehicle. Annual lease costs total $12,896, including a service warranty, maintenance plan
and vehicle registration; annual parking for the vehicle in the headquarters building
garage was $4,704; gasoline expense was $1,100 per year. Our estimate of the total
annual cost to operate the agency vehicle is $18,700 or $1,558 per month.

We found that the agency did not comply with General Service Administration
requirements regarding vehicle size and fuel efficiency when procuring the vehicle, work
to home regulations and website reporting requirements. The OIG estimates that local
travel savings resulting from the lease of the vehicle, which were used to justify the lease,
were modest; the agency saves about $100 per month in taxi and subway fare.
Importantly, our analysis was based on incomplete records. The log used to record trips
was missing approximately half of the vehicle miles appearing on the vehicle’s odometer.

The OIG made four recommendations to address the noted deficiencies.

We wish to thank OMS staff for its assistance in helping us to meet our review
objectives. Management’s comments to our findings and recommendations are appended
to the report.

                                              Respectfully submitted,

                                                     /S/
                                              Adam R. Trzeciak
                                              Inspector General
                                           Office of Inspector General
                                  Review of the Federal Maritime Commission’s
                       Controls over the Procurement, Lease and Use of the Agency Vehicle



The Office of Inspector General (OIG) has completed its review of the procurement and use of
the agency vehicle at the Federal Maritime Commission’s (FMC), Washington D.C.
headquarters. The objectives of the review were to assess compliance with Federal regulations
pertaining to the procurement of the agency’s leased vehicle by FMC staff and determine
whether controls are in place to provide reasonable assurances that the vehicle is being properly
used.

Background

The Federal Maritime Commission was established in 1961 as an independent Government
agency, responsible for the regulation of shipping in the foreign commerce of the United States.
The principal shipping statutes administered by the FMC are the Shipping Act of 1984 (46 USC
app. 1710 et seq), the Foreign Shipping Practices Act of 1988 (46 USC app. 1701 et seq), and
section 19 of the Merchant Marine Act, 1920 (46 USC app. 876). The FMC is headquartered in
Washington D.C., with six area offices located in port cities around the contiguous United States,
each staffed by one or two area representatives.

The Commission is composed of five Commissioners appointed for five-year terms by the
President with the advice and consent of the Senate. Not more than three members of the
Commission may belong to the same political party. The President designates one of the
Commissioners to serve as Chairman. The Chairman is the agency's chief executive and
administrative officer.

As with most federal agencies, the FMC uses vehicle transportation to help perform its mission.
For example, the agency’s area representatives rely on motor vehicles to travel within their
assigned geographic areas to carry out enforcement and outreach activities on behalf of the
Commission. Washington D.C. staff uses one vehicle to travel to meetings and other official
functions, and for pick-up / delivery of supplies and documents. The FMC headquarters was
without an agency vehicle from mid-1990s through February 2011, relying on public
transportation to attend mission-oriented and outreach activities. 1




                                                            
1
  The agency leased two vehicles until the late 1970s when staff size was over twice the size that it is today. The
vehicle fleet was cut in half by the end of the decade, and one vehicle was maintained until the mid 1990s when the
agency experienced budget reductions.

                                                               1 
 
Objectives, Scope and Methodology

The objectives of this review were to assess compliance with Federal regulations pertaining to
the procurement and use of the agency’s leased vehicle by FMC staff, and determine whether
controls are in place to provide reasonable assurances that the vehicle is properly used.

To meet our objectives, we reviewed Federal Management Regulation (FMR) 41 C.F.R. §102-
34, that governs the management and control of motor vehicles the Government owns, leases
commercially or leases through General Services Administration (GSA) Fleet; FMR 41 C.F.R.
§102.5, that provides guidance on the use of Government passenger carriers to transport
employees between their homes and places of work; and other GSA guidance to federal agencies
concerning various aspects of fleet and commercial leasing activities.

We reviewed Presidential Memorandum – Federal Fleet Performance, issued on May 24, 2011.
Section 1(b) of the Presidential Memorandum requires executive vehicles to achieve maximum
fuel efficiency, be limited in motor vehicle body size, engine size and optional equipment to
what is essential to meet agency mission; and be midsize or smaller sedans, except where larger
vehicles are essential to the agency mission.2 The memorandum also provides guidance on
agency website reporting requirements and expands on Executive Order 13514, Federal
Leadership in Environmental, Energy and Economic Performance, issued October 5, 2009, and
Executive Order 13423, Strengthening Federal Environmental Energy and Transportation
Management, issued on January 24, 2007, which together identify energy reduction and
environmental performance requirements issued by the Department of Energy. We also
reviewed Executive Order 12375, Motor Vehicles, that requires passenger automobiles acquired
by all Executive agencies in each fiscal year to achieve an average fuel economy standard that is
not less than the average fuel economy standard for automobiles manufactured for the model
year, which includes January 1 of each fiscal year.

We reviewed General Records Schedule 10, Motor Vehicle and Aircraft Maintenance and
Operation Records to assess compliance with Federal archiving requirements. Finally, we
reviewed the Environmental Protection Agency’s Green Vehicle Guide that provides
implementation guidance on acquiring low greenhouse gas (GHG) emitting vehicles. Section
141 of the 2007 Energy Independence and Security Act requires federal agencies to acquire low
GHG emitting vehicles.

We reviewed mileage logs and records that were maintained to determine whether they were
complete and appropriately designed to collect data necessary to support proper internal control
and reporting and reviewed those records for reasonableness and potentially inappropriate
vehicle use. We collected lease cost information from the contract file and local travel expense

                                                            
2
     41 C.F.R. 102‐34.50 

                                                               2 
 
information from the FMC Office of Budget and Finance (OBF) to assess the impact on local
travel expenses resulting from the acquisition of the agency vehicle.

We reviewed the vehicle procurement for adherence to Federal Acquisition Regulation
requirements and justifications for ordering the vehicle through commercial sources. We
documented optional equipment to determine whether these automotive options supported the
achievement of agency mission as required by Federal Management Regulations. We also
assessed whether the vehicle was available to all agency staff for official business purposes.

We spoke with procurement staff in the Office of Management Services (OMS) about the vehicle
procurement process and interviewed three OMS staff who were identified as drivers of the
vehicle. We also held multiple discussions with a motor vehicle policy analyst at the GSA,
Office of Asset and Transportation Management, Office of Government-wide Policy, for
clarification on regulations and their applicability to the FMC. We also spoke with the FMC
Chairman and three FMC Commissioners regarding their use of the vehicle. 3

The review was performed from May 10, 2012 through June 8, 2012.

The Lease Procurement

Planning for the procurement of the agency vehicle began in late fall/early winter of 2010.
According to the contracting officer, the Chairman expressed interest in a vehicle for agency
staff to use for local business-related travel. The Chairman believed that an agency vehicle could
be justified, in part, through reduced local travel costs spent on taxis and public transportation.
The contracting officer concluded that a large vehicle, such as a sport utility vehicle (SUV),
would be more versatile than a sedan and could be used for picking up and delivering supplies.

The procurement requirement, as explained to the OIG by OMS staff, was for a vehicle that
could seat six or seven adults comfortably, including leather seating for easy care, and the color
black, as black is a “standard and uniform color of government vehicles.” The seating
justification, according to procurement staff, was to enable Commissioners and/or staff to travel
together when attending hearings or meetings.

Procurement staff started its search with GSA Fleet services. According to GSA’s website, the
GSA Fleet includes automobiles, passenger vans, trucks, buses and ambulances. The fleet does
not, according to GSA, include full size SUVs. GSA Fleet is not, however, a mandatory source
of supply, and vehicles may be leased from commercial sources without approval or permission
from GSA. Once the agency determined that an SUV was not immediately available through
GSA, it turned to the GSA’s schedule library of commercial vendors and obtained quotes from
two leasing companies. According to procurement staff, quotes were requested from only two
                                                            
3
     One FMC Commissioner and counsel have not used the vehicle.

                                                               3 
 
vendors because delivery times for other vendors were longer or the schedule vendors did not
meet the agency’s requirement; the Tahoe with all required specifications and options.

The selected 2011 Chevy Tahoe, 4x4, included a V-8 engine and automatic transmission. EPA
fuel economy estimates for this vehicle range from 15 miles per gallon (mpg) in the city to 21
mpg highway. Regular unleaded fuel is recommended although the vehicle is a flex fuel
vehicle. 4 The lease term is two years at $969 per month. A comparison was made with other
executive-class vehicles: a 2011 Cadillac DTS (factory order and dealer stock) and a 2011
Lincoln Town Car Signature, (factory order and dealer stock) monthly least costs were between
$1,517 and $1,695, although costs went down by 50 percent in the second year. The agency also
received quotes on three other full size SUVs from a second vendor. Prices offered were
between $134 and $354 higher than prices from the vendor selected. We found no
documentation in the file to indicate that minivans and non-luxury sedans were considered in the
price comparison.

After adding full maintenance and vehicle registration, the annual cost of the agency vehicle
came to $12,896 or $1,075 per month. 5 The purchase requisition was dated December 9, 2010
and a purchase order was signed one week later on December 16, 2010. The order was modified
on February 25, 2011 to amend the period of performance to February 24, 2011 to February 23,
2012. This corrected for the actual receipt date of the vehicle, which had to be ordered. A
requisition to fund year two of the lease in the amount of $12,896 was signed on March 15,
2012, and a purchase order was signed one day later on March 16, 2012, 21 days after the prior
order expired, requiring a contract ratification to, essentially, back-fund the lease for the gap.

According to discussions with the agency’s Chairman, the purpose of the vehicle was to make it
easier for agency staff to travel without the inconvenience and uncertainty of public
transportation while reducing local travel costs. The OMS Director also stated that arriving at
meetings or other official functions in an agency vehicle added stature to the agency (as opposed
to exiting from a cab or subway). The OIG inquired about the amenities, including the leather
seating, back up camera and global positioning system (GPS). The OMS Director said that, for
reason stated above, he wanted to lease a vehicle for the agency that was “top of the line.”




                                                            
4
  A flexible-fuel vehicle is an alternative fuel vehicle with an internal combustion engine designed to run on more
than one fuel, usually gasoline blended with either ethanol or methanol fuel, and both fuels are stored in the same
common tank. Flex-fuel engines are capable of burning any proportion of the resulting blend.
5
    Total cost, to include gasoline costs and monthly parking, is discussed in Finding #2.

                                                             4 
 
Findings

              Finding 1: Agency Vehicle does not Comply with GSA Guidelines on Size, Fuel
              Efficiency and Optional Equipment

According to Federal Management Regulation 41 C.F.R. §102-34.50, pertaining to motor vehicle
size, Federal agencies may only obtain the minimum size of motor vehicle necessary to fulfill the
agency’s mission in accordance with the following considerations:

        •      The vehicle obtained must achieve maximum fuel efficiency;
        •      Vehicle body size, engine size and optional equipment should be limited to what is
               essential to meet agency mission; and
        •      With the exception of motor vehicles used by the President, Vice President and motor
               vehicles for security and highly essential needs, agencies must obtain midsized or
               smaller sedans.

The OIG reviewed each requirement in light of the agency’s lease procurement.

       (1) Maximum fuel efficiency -- Although the Department of Energy issues fuel efficiency
           standards for motor vehicles, we chose to use the EPA Fuel Economy Estimates
           displayed with the vehicle “sticker price” as a best estimate of the fuel efficiency of the
           Chevy Tahoe as it compares to other SUVs. According to combined gasoline fuel
           economy estimates, the Tahoe averages 17 mpg combined city / highway driving. The
           EPA places the Chevy Tahoe 4X4 in the lower half of combined mileage for all SUVs,
           which range from 10 mpg. to 32 mpg. Using this criterion, we concluded that the Chevy
           Tahoe does not achieve maximum fuel efficiency among SUVs. We did not compare
           Tahoe with smaller (midsize) vehicles.
       (2) Body size, engine size and optional equipment – The OIG found no documentation in the
           procurement file to justify the size of the vehicle ordered nor for the equipment, both of
           which require the agency to spend hundreds of additional dollars monthly. While the
           agency did not have usage data available when the requirement was identified, nor did it
           estimate local travel cost savings resulting from the lease of the vehicle, it is clear now
           that a requirement to seat seven passengers cannot be supported by actual usage of the
           vehicle. 6 As we show below, 91 percent of trips included three or less passengers. Nor
           could we explain or defend the V-8 engine size, 4x4 drive train or leather seating as being
           required to meet the FMC mission.
       (3) Security and highly essential needs – In discussions with procurement staff, the security
           of FMC employees was not provided as a reason for the procurement of the SUV. The
                                                            
6
  Agency staff did consult with the agency’s budget director who confirmed that the purchase would result in lower
local travel expenses via public transportation. But, as noted later in the report, no specific sized-vehicle was
discussed with her.

                                                               5 
 
              contracting officer wanted a multiuse vehicle and when looking at pricing of other
              executive vehicles, found the Chevy Tahoe cost less than select Cadillacs or Lincoln
              Town Cars in year one of the lease. Examples of midsized sedans include the Ford
              Taurus, Chevy Malibu and Chevy Impala which lease for just over half the lease cost of
              the Chevy Tahoe. The OIG could not document any security or “highly essential needs”
              requiring a full size SUV.

While the requirements are clearly identified in the Federal Management Regulation,
procurement staff told the OIG that it was not familiar with these requirements and were not told
of any limitations on vehicle size, options, etc., by GSA. Unless vehicles are obtained through
GSA Fleet services, agencies are left to self monitor the use of agency-procured vehicles.



              Finding 2. The SUV Lease Resulted in Modest Local Travel Savings

In February 2011, the OMS leased the SUV for the purposes of (i) picking up supplies and other
office needs; and (ii) transporting agency staff to and from business meetings and other
Commission-related events. Annual lease costs total $12,896, which includes a service warranty,
maintenance plan, and, vehicle registration. The agency pays an annual parking fee of $4,704
for reserved parking in the garage below the headquarters building. Based on receipts we
reviewed, gasoline added another $1,100 per year to the operating cost of the vehicle. Our
estimate of the total annual cost to operate the agency vehicle is $18,700; the average monthly
cost is $1,558.

The Director, OMS, and the agency’s managing director discussed the lease with the director of
the agency’s Office of Budget and Finance. The purpose of this discussion was to determine
whether the purchase was warranted, i.e., was it something the agency could move forward on
given budget constraints. According to the managing director, he was told the lease “made
sense” in light of the projected savings in local transportation costs. The Director, OBF, told the
OIG that the size of the vehicle was not discussed with her when this coordination occurred.

The OIG compared total operating costs to amounts spent by the agency on local travel for the
period preceding and following the lease of the agency vehicle. Our purpose was to identify the
extent to which savings to local travel offset leasing costs. We did not factor in a dollar estimate
of staff’s time to use public transportation (e.g., to “catch a cab” or walk three blocks to the
subway); nor did we factor in OMS staff time required to drive agency officials. Three OMS
staff at GS-6, GS-13 and GS-15 drive the vehicle to transport agency staff. Although we could
not identify with any certainty the time required to drive the vehicle on any of the trips, 7 nor was


                                                            
7
    In Washington D.C. traffic and congestion, a one mile trip can take 20 minutes or more.

                                                               6 
 
such information recorded in the vehicle-usage log (see below) we note the unloaded pay rate of
the drivers below for information only:

    •   GS-15 Hourly Rate -- $74.50
    •   GS-13 Hourly Rate -- $48.34
    •   GS-6 Hourly Rate -- $18.19

In fiscal years 2008 and 2009, the agency spent $3,314 and $2,645, respectively, on local travel.
In fiscal year 2010, the amount increased to $5,092, but $1,030 of this total includes a three-
month contract with an executive limousine service. We included the amount here as the service
was used for local travel. For the three fiscal year period, the agency’s monthly local travel
expenses averaged $307.

The agency took possession of the SUV approximately five months into Fiscal Year 2011. For
the seven month period March through September 2011, local travel totaled $1,391, or $199 per
month. Comparing this average (after lease purchase) to the three-year average above (pre-
lease), the agency realized just over $100 savings in monthly local travel expenses resulting from
the lease of the SUV.



        Finding 3: Vehicle Log did not Account for 50 percent of Miles Driven

The Federal Management Regulation requires that agencies develop adequate accounting and
reporting procedures to ensure accurate reporting of inventory, cost and operation data needed to
manage and control motor vehicles.

The OIG reviewed the log maintained by OMS drivers of the agency vehicle. The log captures
the following information: date, destination, purpose of trip, driver, number of passengers and
estimated mileage. As a first step, the OIG totaled the miles accounted for on the log and
compared this to the vehicle’s odometer mileage. We determined that 50 percent of the vehicle’s
miles were not accounted for on the log. Specifically, the log documented 1,371 miles during
the period February 2011 through May 15, 2012. However, the odometer showed 2,711 miles
for the same period. Based on information available to us, we could not determine the disposition
of the missing entries. The failure to maintain a log is a lapse in basic accountability required of
a government agency.

Based on our review of the entries identified on the log, we were able to make some
generalizations regarding how the vehicle is used. One relates to the number of passengers that
use the vehicle per trip. During discussions with procurement staff, we were told that one
requirement for the vehicle was that it seat seven passengers comfortably. We identified 282
trips on the log accounting for 1,371 miles. Of the 282 trips, 21 trips were made with no

                                                 7 
 
passengers. Often, these trips are made to pick up supplies or drop off documents. Of the
remaining 261 trips recorded, 214 (82 percent) were made with between one and two passengers.
Another 24 trips (9.2 percent) in the log recorded transportation for three passengers.
Conversely, five trips included six passengers (2 percent). We identified no trips on the log with
seven passengers. 8

Another area we reviewed was the Chairman’s use of the vehicle to transport him to and from
Washington’s Union Station as part of his daily commute. This issue is treated separately below
in Finding 5, but we note here that 105 of the 261 trips (40 percent) accounted for in the log were
made for this purpose.

All three drivers told the OIG that driving duties are not in their position description. The
primary driver learned that driving the SUV would become part of his official responsibilities
one month after beginning employment at the FMC. The Director, OMS, discussed the
expanded duties and asked this individual if he was comfortable with this added responsibility.
This individual drove for over half of the trips recorded on the log: 156 of the 282 recorded trips
(55 percent). The GS-13 analyst drove the vehicle on 77 trips (28 percent) as the official “back
up” driver. The GS-15 Office Director, accounting for 17 percent of the trips taken and
documented in the log.

When inquired of the three drivers about the missing entries, and whether entries may have been
intentionally omitted, all stated that the omissions were not intended to mask any trips. All
blamed the missing entries on “sloppy accounting.” The OIG found nothing to suggest
otherwise.

The OIG believes that usage records, albeit incomplete, make it difficult to justify a seven
passenger vehicle. However management told the OIG that the needs of agency staff warrant a
larger size vehicle rather than a midsize sedan. Management has the discretion to obtain a full-
size vehicle if it can justify that one is essential to the agency’s mission.



              Finding 4. The Vehicle is Used by few Staff for Numerous Purposes

On March 7, 2011, the Director, OMS, sent an email to all agency staff identifying the
reservation procedures to be used for “transportation services via the agency vehicle.” The email
describes who to contact (OMS), who may drive the vehicle (OMS employees), and recommends
that requests be made in advance to help OMS ensure coverage in the office when drivers are
away. The email concludes by saying that there will be times when this service will not be

                                                            
8
  We emphasize that the analysis was performed using the log that was missing documentation for half of the miles
traveled.

                                                               8 
 
available and alternative plans will have to be made. We understood this to mean that OMS may
not be available to drive the vehicle. Drivers told us that the Chairman always has first priority.

In reviewing documentation to spot potential, unofficial uses of the vehicle, we found that the
log was often completed in vague terms and entries. For example, there were several “meetings”
attended and luncheons. We did follow up with staff when identified to discuss unclear
“destination” or “purpose” entries, but, often, staff was not specifically identified, making follow
up impossible. Drivers would be in the best position to know if the vehicle was being abused,
and all three drivers told the OIG that they were not aware of abuse occurring. Rather than
drawing conclusions based on incomplete information or conjecture, we simply identify, by
category, how the vehicle was used, according to the log, for the nine-month period from
September 1, 2011 to May 14, 2012:



                              Purpose of Trip                Number of Trips

                    Chair to/from Union Station                      72
                    Attend Meeting                                   42
                    Supplies/Delivery                                12
                    Congressional Business                           8
                    Business Luncheon                                8
                    Car Maintenance/Gasoline                         6
                    Appointment (no explanation)                     5
                    White House                                      4
                    Pick-up (no explanation)                         4
                    Store Vehicle Off-site                           4
                    Airport                                          1
                    Training for Two Staff                           1
                                  TOTAL                             165

The agency has procedures for requesting use of the vehicle. When the OIG sought access to the
requests to fill in some of the gaps, we were told that staff did not routinely follow the
reservation procedure (using the “OMS Maritime” email account) and, instead, emailed requests
directly to individual OMS staff members or made verbal requests. Documentation of these
requests was not routinely maintained and, thus, could not be relied upon by the OIG.



       Finding 5: Use of the Vehicle for Trips to Washington Union Station

Based on our review of the agency log, the OIG determined that the agency’s Chairman uses the
vehicle for pick up and drop off at Washington Union Station, in effect, as a shuttle to assist in
his daily commute. The question that we sought to answer is whether such accommodation is

                                                 9 
 
permitted under GSA regulations, specifically Title 41: Public Contracts and Property
Management, Part 102-34, Motor Vehicle Management.

Based on our review of the log, we determined that the Chairman made 105 such trips between
the March 30, 2011 and May 11, 2012. Drivers of the agency’s vehicle told the OIG that the
rides were routine by the fall of 2011. Prior to that time, the Chair walked from Union Station –
a walk of approximately three city blocks, and/or received rides from his Chief of Staff, but this
latter arrangement evaporated when the Chief of Staff began using public transportation.

Federal Management Regulation §102-34.210 provides guidance on using a Government motor
vehicle for transportation between places of employment and mass transit facilities. According
to this guidance, a Government motor vehicle may be used for transportation between places of
employment and mass transit facilities under the following conditions:

    •   The head of the agency makes a determination, in writing, that such use is appropriate
        and consistent with sound budget policy;
    •   There is no safe and reliable commercial or duplicative Federal mass transportation
        service that serves the same route on a regular basis;
    •   This transportation is made available, space provided, to other Federal employees; and
    •   Motor vehicle ridership levels must be frequently monitored to ensure cost/benefit of
        providing and maintaining this transportation.

Although the guidance implies the possibility of an employee shuttle service, the term is not
used, leading to some confusion when applying the regulation. However, the OIG received
confirmation from GSA vehicle policy staff that the guidance does, in fact, refer to shuttle
services.

Clearer guidelines covering use of a government vehicle for trips to and from an employee
residence are provided in Federal Management Regulation §102-34.205. This guidance makes
it clear that a Government motor vehicle may not be used for transportation between the
employee’s residence and place of employment. Obtaining a ride on the first leg of the trip
home, or the last leg of the trip to work, is considered by GSA vehicle policy, as extensions of
trips to a personal residence, making these trips outside the official use limits of the vehicle.
Unless security concerns are present, the vehicle should not be used for commuting purposes.

In discussions with the Chair, he indicated that he received rides to Union Station due to a
painful medical condition exacerbated by walking and carrying heavy objects, including
briefcases. The Chair provided the OIG with a letter from his attending physician to verify that
he continues to be under treatment for the condition and has been under treatment since 2006.
More recently, the Chair suffered a foot injury that made it difficult to walk without severe pain.


                                                10 
 
That injury lasted from January 2012 through May 2012. A physician’s note was also provided
to the OIG.

Section 102-5.95 of the Federal Management Regulation states that the comfort and convenience
of an employee is not considered sufficient justification to authorize home to work
transportation. However, the head of each department, agency or other entity of each branch of
the Government may prescribe, by rule, appropriate conditions for the incidental use, for other
than official business, of vehicles owned or leased by the government. 9 According to GSA
Vehicle Policy staff, the Chairman, as agency head, may make a determination authorizing
home-to-work transportation for him or any other employee. However, such a determination
must be reported outside the agency. Section 102-5.110 requires the agency head to submit his
determination to the following Congressional Committees:

       (a) Chairman, Committee on Governmental Affairs, United States Senate; and
       (b) Chairman, Committee on Oversight & Government Reform, United States House of
           Representatives.

Both the Director of OMS and the Chair indicated that they were unaware of any prohibition
against using the SUV for daily commuting. The Chairman did not make the determination
required by GSA.



              Finding 6: Vehicle Website Reporting not Performed

Presidential Memorandum – Federal Fleet Performance, issued May 24, 2011, requires agencies,
within 180 days of the memorandum issuance, to disclose on the agency’s website, any executive
vehicle that is larger than a midsize sedan or does not comply with alternative fueled vehicle
requirements. If either criterion is not met, the vehicle must be disclosed.

The FMC lease of the 2011 Chevy Tahoe clearly puts the agency out of compliance with this
Presidential Memorandum, as the vehicle is larger than midsize. The agency did not comply
with the disclosure. Agency procurement staff told the OIG that it was unaware of this reporting
requirement but has taken steps to post the necessary information on the website. A draft
compliance report has been prepared.




                                                            
9
 Pub. L. 101-194, title V, Sec. 503, Nov. 30, 1989, 103 Stat. 1755, as amended by Pub. L. 101-280, Sec. 6(b), May
4, 1990, 104 Stat. 160

                                                               11 
 
Summary

The agency set out to lease a vehicle that would assist staff to attend meetings and other official
functions in the local Washington DC area. Agency procurement staff was not aware of
regulations and guidelines that must be followed pertaining to vehicle size, mileage and gas
emissions. Consequently, a full size SUV was leased without justification for deviating from
size requirements. The OIG found no documents in the file to explain the requirement for the
size, seating capacity and other options required by the agency, although the requirement was
explained to the OIG, as documented in this report. The agency had a responsibility to perform
research into these requirements before moving forward with the procurement action.

Once the “requirement” for an SUV was determined, agency procurement staff contacted GSA
but learned that a vehicle of the size with specified options was not in the fleet. The agency then
turned to commercial vendors, on GSA schedule, to meet the requirement. This is permissible,
although the agency should have sought quotes from at least three vendors instead of the two
vendors asked to provide quotes. The agency estimated that the number of riders and the cost
savings over local travel would help justify the lease. These two factors argue just the opposite.
Monthly local travel cost has been reduced by just over $100 compared to fully loaded monthly
lease costs of about $1,500. Further, 91 percent of the recorded trips were made with three or
less employees.

Before the lease expires in 2013, the agency should assess whether an eight passenger SUV is
needed to accomplish the agency’s mission, given usage records and budgetary limitations.
There are advantages to the agency and its staff to have access to a vehicle. And it can save
time, enabling staff to be at work for longer periods before traveling. But the costs to such
conveniences must be factored in. If a vehicle is considered necessary to perform the agency’s
mission, the data we reviewed suggests that a midsize sedan could address the need.

Finally, the vehicle manager should work with the Chairman and General Counsel to make a
determination about use of the vehicle for the purpose of driving the chairman to and from Union
Station. As occurring now, the regulations do not permit these trips. If the Chairman wishes to
justify the use of the SUV as a commuting shuttle, he should follow the GSA procedure for the
authorization of home-to-work transportation. Again, the agency’s General Counsel should
research the consequences of any determination made regarding the use of the vehicle outside of
official business.




                                                 12 
 
Recommendations:

    1. At lease end, OMS should reconsider the requirement for an SUV using applicable
       regulations, Presidential Memoranda and Executive Orders as guidance.
    2. OMS should revise log mileage recording procedures to include odometer beginning and
       ending readings (not mileage estimate), and complete the log after each trip.
    3. In consultation with the General Counsel, the agency should make a determination on
       acceptable unofficial uses of the agency vehicle and fulfill applicable reporting
       requirements.
    4. OMS should post the required Fleet Management Compliance Report to the agency’s
       webpage.




                                             13 
 
UNITED STATES GOVERNMENT                                         FEDERAL MARITIME COMMISSION


Memorandum
TO         : Inspector General                                DATE: July 16, 2012



FROM       : Managing Director



SUBJECT: Review of the FMC’s Controls over the Procurement, Lease and Use of the Agency
         Vehicle

I have reviewed the recommendations contained in the subject Review, and agree with the four
recommendations made. We will move expeditiously to implement the recommendations.

However, some information contained in the report is not complete, possibly leading to findings
that do not fully reflect the Commission’s needs and the reasons for the vehicle’s procurement.
Accordingly, I am taking this opportunity to clarify some of the information.

As your report indicates, the Chairman determined late in calendar year 2010 that the
Commission could benefit from having a multi-purpose vehicle to use at headquarters for the
purpose of transporting agency personnel to meetings and conferences at a variety of locations in
and around Washington, as well as picking up and delivering equipment and supplies as
necessary. The Commission had been without such a vehicle for a number of years, having
decided to forego such a vehicle during a severe budget crunch in the mid-1990s, in order to
prevent the need for furloughing personnel. There were a number of meetings that the Chairman
and other agency staff attended, often with a number of staff attending at the same time.
Something not mentioned in your report is that, on several occasions, staff had voluntarily driven
their own SUVs to accommodate transportation of staff to meetings. The number of staff
attending a meeting had necessitated bringing in an SUV to transport the personnel. On other
occasions, staff drove their own non-SUV vehicles when just a few staff were attending.
Frequently, staff did not request mileage reimbursement for such transportation.

Your report questions the need for a vehicle that seats up to seven, citing records showing few
trips with more than three passengers. At the same time, you indicate that the vehicle log had not
been maintained accurately and only accounted for 50% of vehicle miles. I can unequivocally
state from recollection that the majority of times I traveled in the vehicle, at least five, and often
seven passengers, were transported. I agree that the logs were not properly maintained, and we
will take action to remedy that, but I take issue with the credibility of your conclusion that the
vast majority of the vehicle’s usage involved transporting three passengers or less, especially
since it is based on inadequate records.

The Commission’s Office of Management Services (OMS) was tasked to explore obtaining a
vehicle that was appropriate for agency needs, including the need to transport several
Commission staff at one time, of suitable size that some of our physically larger personnel could
fit in the vehicle (sufficient headroom, etc) and could transport materials and supplies. At the
time that OMS was tasked to do so, I did verbally check with another agency of comparable size
(with fewer Commissioners) and was informed that agency had two vehicles it used for those
purposes.

You question choice of an SUV. The OMS Director recommended leasing an SUV instead of a
sedan because of the greater versatility and additional seating capacity (including for taller than
average personnel). The standard sedan seats three (3) comfortably, while an SUV seats five (5)
and can seat individuals over six feet tall comfortably. The SUV’s fold-down seats are useful in
transporting oversized boxes, equipment or luggage, while the trunk space of standard sedans has
very limited space.

You also question the choice of vehicle and options. A GPS system was considered important to
assist with navigating through the city, especially considering there is no designated driver. The
GPS function was intended to save time and money by reducing or eliminating additional
mileage and fuel in the attempt to find address locations unfamiliar to any driver of the vehicle.
Once that determination is made, packages almost dictate other features. OMS determined it was
more cost effective to lease a model with safety and operational equipment included rather than
purchase options at market price. Although one can easily question advantages of leather
seating, OMS believed it to be more durable and would minimize the daily upkeep and damage
to the interior, considering the vehicle was available for use by the entire agency staff. OMS
reviewed all the SUVs available though GSA FSS. After informal discussions with several FPS
contacts, who recommended the Tahoe over other vehicles, OMS felt a Chevrolet Tahoe
provided the best operating efficiency, security and safety.

Below are our comments regarding corrective actions which will be effected to address the
recommendations.

Recommendation 1: The IG recommends that, at lease end, OMS reconsider the requirement
for an SUV using applicable regulations, Presidential Memoranda and Executive Orders as
guidance.
Response: At lease end, management will evaluate the need for an SUV, considering guidance
in applicable regulations, Presidential Memoranda and Executive Orders, as well as the agency’s
requirements. We note, however, that the primary Presidential Memorandum cited, Federal
Fleet Performance issued on May 24, 2011, was issued three months after the present SUV was
leased.

Recommendation 2: The OIG recommends that OMS revise their log recording procedures to
include odometer beginning and ending readings (not mileage estimates), and that drivers
complete the log after each trip.
Response: Management will revise its vehicle log and recording procedures, to completely
account for all vehicle use. The revised log and procedures will be fully implemented by July
31, 2012. Currently, drivers are recording odometer beginning and ending readings at the
beginning and ending of each trip.




                                                2
Recommendation 3: The OIG recommends that the agency, in consultation with the General
Counsel, make a determination of acceptable unofficial uses of the agency vehicle and fulfill
applicable reporting requirements.

Response: Management will consult with the General Counsel as recommended. It does not
appear that any unofficial uses of the vehicle are warranted, but a determination regarding that
issue will be made, and applicable reporting requirements complied with. This will be
completed by September 30, 2012.


Recommendation 4: The OIG recommends that OMS post the required Fleet Management
Compliance Report on the agency’s webpage.

Response:     OMS will have the Fleet Management Compliance Report posted on the
Commission’s webpage. This will be completed by July 31, 2012.



                                            /Ronald D. Murphy/




                                               3
